                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM




                 We requested and received the grant's general ledgers fiom the institution. We selected 236
         general ledger entries for which we requested and received supporting documentation. Analysis of
         the provided records revealed certain unsupported and otherwise potentially questionable costs, but
         no evidence of wrongdoing. In the meantime, the institution's A-133 audit revealed significant
         internal control issues and questioned costs. Since the Office of Audit (OoA) was assessing whether
         to conduct additional audit work as a result of the A-133 audit, we referred the information we had
         gleaned to OoA and recommended that an audit be performed.

                 Because we could find no evidence of wrongdoing, and the anonymous complainant provided
         none, this case is closed.




NSF 01G Form 2 (1 1/02)
